4/27/2016

Fowler State Bank ­ Fowler, Indiana ­ Credit Card Application

CREDIT APPLICATION

When you use the...

Visa® or MasterCard®
Credit Card for the
purchase of goods or
services, the following
benefits are yours!
TRAVEL ACCIDENT INSURANCE
You, your spouse and dependent children up to
age 19 (age 25 if a full­time student at any
institute of higher learning) are automatically
covered with common carrier travel accident
insurance every time you travel by air, bus, train,
ship, taxi, or any other common carrier anywhere
in the world when you charge your entire fare to
our card. This coverage is provided to you at NO
EXTRA COST.
Visa® and MasterCard®

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

15.48%

APR for Check Transactions

15.48%

APR for Cash Advances

15.48%

Fixed

Fixed

Fixed

Penalty APR and When it Applies

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on retail purchases or check transactions if you pay your
entire balance by the due date. We will begin charging interest on cash advances
on the transaction date. We do not offer balance transfers.

Minimum Interest Charge

None

For Credit Card Tips from the Federal Reserve Board

To learn more about factors to consider when applying for or using a credit card,
visit the web site of the Federal Reserves Board at
http://www.federalreserve.gov/creditcard.
Visa® and MasterCard®

Fees
Annual Fee

None

Transaction Fees
Check Transactions

None

Cash Advances

2.0% of the amount advanced ­ $10 maximum

https://secureforms.c3vault1.com/forms/fowlerstatebank/creditApp.asp

1/2

4/27/2016

Fowler State Bank ­ Fowler, Indiana ­ Credit Card Application
Foreign Transaction

1.0% for foreign conversion & .8% when currency conversion does not occur

Penalty Fees
Late Payment

Up to $18.00

Over­the­Credit­Limit

None

Returned Payment

Up to $20.00

Other Fees
Replacement Card Fee

$20.00

How We Will Calculate Your Balance: We use a method called "average daily balance" (excluding new purchases).* An explanation of this method is
provided in your account agreement.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.

Continue

https://secureforms.c3vault1.com/forms/fowlerstatebank/creditApp.asp

2/2

